     Department of Homeland Security

     ��������������������������



Independent Review of U.S. Coast Guard's Reporting 

    of FY 2013 Detailed Accounting Submission





OIG-14-39                              February 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


   
                                      FEB 12 2014 
 
MEMORANDUM FOR:	             Rear Admiral Stephen P. Metruck 
                             Chief Financial Officer 
                             U.S. Coast Guard 
 
FROM:	                       Mark Bell 
                             Acting Assistant Inspector General for Audits 
 
SUBJECT:	                    Independent Review of U.S. Coast Guard’s Reporting of 
                             FY 2013 Detailed Accounting Submission 
   
Attached for your information is our final report, Independent Review of U.S. Coast 
Guard’s Reporting of FY 2013 Detailed Accounting Submission. U.S. Coast Guard’s 
management prepared the Detailed Accounting Submission to comply with the 
requirements of the Office of National Drug Control Policy Circular, Accounting of Drug 
Control Funding and Performance Summary, dated January 18, 2013.  
 
We contracted with the independent public accounting firm KPMG LLP to perform the 
review. KPMG LLP is responsible for the attached independent accountants’ report, 
dated February 04, 2014, and the conclusions expressed in it. We do not express an 
opinion on the Detailed Accounting Submission. This report contains no 
recommendation. 
 
Consistent with our responsibility under the Inspector General Act, we are providing 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security. We will post 
the report on our website for public dissemination.    
         
Please call me with any questions, or your staff may contact Sandra John, Acting Deputy 
Assistant Inspector General for Audits, at (202) 254‐4100.   
 
Attachment                                  
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                     Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Detailed Accounting Submission of the U.S. Department of
Homeland Security’s (DHS) U.S. Coast Guard (USCG) for the year ended September 30, 2013. USCG’s
management is responsible for the Detailed Accounting Submission.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Detailed Accounting
Submission. Accordingly, we do not express such an opinion.

Management of USCG prepared the Detailed Accounting Submission to comply with the requirements of
the Office of National Drug Control Policy (ONDCP) Circular, Accounting of Drug Control Funding and
Performance Summary, dated January 18, 2013 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that the Detailed Accounting
Submission for the year ended September 30, 2013, referred to above, is not fairly stated, in all material
respects, in conformity with the criteria set forth in the Circular.

This report is intended solely for the information and use of the management of DHS and USCG, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




February 4, 2014




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
U.S. Department
Homeland        o~·
          Security • ..
                                         Commandant
                                         United States Coast Guard
                                                                        2703 Martin Luther King Ave SE
                                                                        Washington, DC 20593-00
                                                                        Staff Symbol: CG-82
                                                                        Phone: (202) 372-3511
United States                                                           Emaii:Emile.f.Cochet@ uscg.mil
Coast Guard


                                                                       7110
                                                                     FER      4 2014
Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of the Inspector General
Department of Homeland Security

Dear Ms. Richards,

In accordance with the Office of National Drug Control Policy Circular: Accounting of Drug
Control Funding and Performance Summary, dated January 18, 2013 , enclosed is the Coast
Guard's FY 2013 Detailed Accounting Submission.

If you require further assistance on this information, please contact LCDR Emile Cochet at (202)
372-3511.

                                                 Sincerely,


                                                  ~)4-cHrVJ(?
                                                 A.J.   TI~~ON
                                                 Captain, U.S. Coast Guard
                                                 Chief, Office of Budget and Programs


Enclosure: USCG FY 2013 Detailed Accounting Submission


Copy: DHS Budget Office
                              DEPARTMENT OF HOMELAND SECURITY 

                                   UNITED STATES COAST GUARD 

                      Detailed Accounting Submission of FY 2013 Drug Control Funds



   DETAILED ACCOUNTING SUBMISSION
   A. Table of FY 2013 Drug Control Obligations

                         RESOURCE SUMMARY
                         (Dollars in Millions)                                                2013 Actual
             Drug Resources by Drug Control Function:                                         Obligations
                • Interdiction                                                                 $1,313.028
                • Research and Development                                                         $2.563
                                            Total Resources by Function                        $1,315.591

             Drug Resources by Budget Decision Unit:
                • Operating Expenses (OE)                                                        $773.540

                  •    Reserve Training (RT)                                                      $14.636

                  •    Acquisition, Construction, and Improvements (AC&I)                        $524.852

                  •    Research, Development, Test and Evaluation (RDT&E)                          $2.563

                                                       Total Drug Control Obligations          $1,315.591
             Note: Reimbursements and external funding streams (e.g. HIDTA and OCDETF) are
             independent from the above FY13 obligations and are not included in the total.



1. Drug Methodology
In FY 2000, a methodology known as the Mission Cost Model (MCM) was developed to present United
States Coast Guard (Coast Guard) missions using activity-based cost accounting principles. The MCM
is an estimate of operational mission costs allocated across the Coast Guard’s 11 mission/programs. The
information reported is timely and derived from an allocation process involving the Coast Guard’s
financial statement information and operational employment data. The operating hour allocation, or
baseline, is developed and modified based upon budget line item requests and operational priorities.

The Coast Guard is required to report its drug control funding to the Office of National Drug Control
Policy (ONDCP) in four appropriations, categorically called decision units. The Coast Guard’s drug
control funding estimates are computed by examining the decision units that are comprised of:
Operating Expenses (OE); Reserve Training (RT); Acquisition, Construction, and Improvement
(AC&I); and Research, Development, Test, and Evaluation (RDT&E). Each decision unit contains its
own unique spending authority and methodology. For example, AC&I includes funding that remains
available for obligation up to five years after appropriation and RDT&E includes funding which does
not expire. Unless stipulated by law, OE and RT funding must be spent in the fiscal year it is



                                                                   1

appropriated. The mechanics of the MCM methodology used to derive the drug control information for
each decision unit's drug control data is derived as follows.

Mission Cost Allocations

OE funds are used to operate Coast Guard facilities; maintain capital equipment; improve management
effectiveness; and recruit, train, sustain, and compensate an active duty military and civilian workforce.
The Coast Guard tracks the resource hours spent on each of its 11 statutory missions. Obligations within
the drug interdiction program are derived by allocating a share of the actual obligations of assets and
activities based upon the reported percentage of time aircraft, cutters, and boats spent conducting drug
interdiction activities.

The two chief input drivers to the MCM are:
•	 The Coast Guard’s Standard Rate and User Fee (SRUF) – The SRUF model calculates the total
   cost, including direct, support and overhead, of operating the Coast Guard’s assets, as well as
   missions or services that the Coast Guard performs but does not have related standard rates or user
   fees.
•	 Abstract of Operations (AOPS) and Aviation Logistics Management Information System (ALMIS) –
   Cutter and boat activities are captured by the AOPS system, while aircraft operational hours are
   entered into ALMIS. Expenses allocated to missions or services, and not assets, are driven to each
   of the employment categories by percentages. Those percentages are determined by surveys of those
   activities.

The Coast Guard tracks the resource hours spent on each of the 11 Coast Guard statutory missions using
AOPS and ALMIS. This data is then used to determine the amount of time each asset class spends
conducting each Coast Guard mission as a ratio of the total resource hours spent on all missions. In
addition, using financial data gathered from over 3,000 cost centers around the United States along with
the AOPS and ALMIS information, the Coast Guard is able to allocate OE costs to each of the 11
statutory missions consisting of: Drug Interdiction; Migrant Interdiction; Ports, Waterways and Coastal
Security; Other Law Enforcement; Defense Readiness; Search and Rescue; Marine Safety; Ice
Operations; Marine Environmental Protection; Living Marine Resources; and Aids to Navigation.

By design, the MCM is based on the OE decision unit. While mission-program spreads derived from
MCM can be directly applied to OE and RT decision units, AC&I and RDT&E decision units must be
calculated separately. This is due to the structure of the AC&I and RDT&E decision units, which are
presented as individual projects in the Coast Guard’s budget submission. Within AC&I and RDT&E,
individual projects are allocated to missions based on an established profile (largely based on
utilization). The drug interdiction attributions of each of these projects are then combined to determine
the total contribution to the drug interdiction mission.

The program percentages derived from the MCM are applied to OE, RT, AC&I and RDT&E decision
units per the above methodology (see Attachments A, B, C and D, respectively). Obligation data is
derived from the final financial accounting Report on Budget Execution (SF-133).

2. Methodology Modifications

The methodology described above is consistent with the previous year.


                                                     2

3. Material Weaknesses or Other Findings

As identified in the FY 2013 Independent Auditors’ Report of the Department of Homeland Security
(DHS), the Coast Guard contributed to Departmental weaknesses in the following internal control areas:
Financial Reporting; IT Controls and System Functionality; Property, Plant and Equipment; and
Budgetary Accounting. Following the recommendations provided in previous Independent Auditors’
Reports, the Coast Guard continued to implement corrective action plans to remediate long-standing
internal control deficiencies. The aforementioned weaknesses do not have a significant effect on the
presentation of FY 2013 drug-related obligations data. Moreover, the Coast Guard can provide
reasonable assurance that FY 2013 obligations data has been fairly reported.

The Coast Guard’s Financial Strategy for Transformation and Audit Readiness (FSTAR) continues to
strengthen internal controls and provides assurance over the fidelity of financial information. This effort
seeks to remedy the causes of identified material weaknesses and aims to implement long-term solutions
to remedy such issues. Such improvements helped DHS to achieve a clean, unqualified audit opinion on
its FY 2013 financial statements. The Coast Guard will continue to utilize FSTAR to make
improvements and to strengthen Department-wide internal controls by implementing recommendations
contained in Exhibit I of the FY 2013 Independent Auditors’ Report.

As previously discussed, because the Coast Guard budgets by congressionally established appropriations
(rather than individual missions), the organization must rely on information contained within the
activity-based MCM. The Coast Guard uses this MCM data to determine financial obligations
specifically related to statutory missions, including Drug Interdiction. This appropriation structure
supports multi-mission requirements by allowing the service to surge and shift resources across all
missions, and this level of resource flexibility is critical to successful mission execution in our dynamic,
operational environment. However, such a structure makes it is difficult to precisely determine the cost
of a particular mission or the “level of effort” expended in carrying out that mission. Notwithstanding
its limitations, the MCM has been endorsed by the Office of Management and Budget (OMB) in
formulation of the Coast Guard’s annual budget request to Congress. The MCM provides the Coast
Guard with a reliable, repeatable system that forecasts future year spending and estimates previous year
obligations by mission.

4. Reprogrammings or Transfers

During FY 2013, the Coast Guard had no reports of transfers or reprogramming actions affecting drug
related budget resources in excess of $1 million.

5.	 Other Disclosures
The following provides a synopsis of the United States Coast Guard’s FY 2013 Drug Control Funds
reporting which describes:

   1.	 The agency’s overall mission and the role of drug interdiction efforts within the Coast Guard's
       multi-mission structure; and
   2.	 The Coast Guard’s Drug Budget Submission.

Coast Guard Mission



                                                      3

The Coast Guard is a military service with mandated national security and national defense
responsibilities, and is the United States' leading maritime law enforcement agency with broad, multi-
faceted jurisdictional authority. Due to the multi-mission nature of the Coast Guard and the necessity to
allocate the effort of a finite amount of assets, there is a considerable degree of asset “cross-over”
between missions. This cross-over contributes to the challenges the Coast Guard faces when reporting
costs for its mission areas.

Coast Guard's Drug Budget Submission

In the annual National Drug Control Strategy (NDCS) Budget Summary, all agencies present their drug
control resources broken out by function and decision unit. The presentation by decision unit is the one
that corresponds most closely to the Coast Guard’s congressional budget submissions and
appropriations. It should be noted and emphasized that the Coast Guard does not have a specific
appropriation for drug interdiction activities. As such, there are no financial accounting lines for each of
Coast Guard’s 11 statutory missions. All drug interdiction operations, capital improvements, reserve
support, and research and development efforts are funded out of general Coast Guard appropriations.

For the most part, the Coast Guard drug control budget is a reflection of the Coast Guard’s overall
budget. The Coast Guard’s OE appropriation budget request is incremental, focusing on the changes
from the prior year base brought forward. The Coast Guard continues to present supplementary budget
information through the use of the MCM, which allocates base funding and incremental requests by
mission.

This general purpose MCM serves as the basis for developing drug control budget estimates for the OE
and RT appropriations and provides allocation percentages used to develop the drug control estimates
for the AC&I and RDT&E appropriations and the process is repeatable. Similarly, this is the same
methodology used to complete our annual submission to the Office of National Drug Control Policy
(ONDCP) for the NDCS Budget Summary.

Assertions

   1) Obligations by Budget Decision Unit

       Not Applicable. As a multi-mission agency, the Coast Guard is exempt from this reporting
       requirement.

   2) Drug Methodology

       The Coast Guard does not have a discrete drug control appropriation and its financial systems are
       not structured to accumulate accounting data by operating programs or missions areas.
       However, the methodology used to produce the drug interdiction funding in this report is
       repeatable and is based on the attribution of direct, support and overhead costs proportionally
       allocated to reflect historical mission employment data presented in AOPS. This methodology
       is consistently used by the Coast Guard to develop annual budget year submissions and mission
       related reports. These submissions include: Resource Allocation Proposal (RAP), Resource
       Allocation Decision (RAD) and the Office of Management and Budget’s (OMB) MAX budget
       update of Coast Guard’s Congressional Budget submissions and the DHS CFO Statement of Net
       Cost report. The criteria associated to this assertion are as follows:


                                                      4

   a) Data – The percentage allocation results derived from its MCM methodology are based on
      the FY 2013 financial and AOPS data, as presented in the Coast Guard’s FY 2015 OMB
      Budget Submission.

   b)	 Financial Systems – Financial data used in this methodology are derived from the Core
       Accounting System (CAS) and Surface Forces Logistics Center (SFLC) systems. No other
       financial system or information is used in developing program or mission area allocations.
       Although the Coast Guard has not fully remediated weaknesses identified by independent
       auditors during previous audits, the Coast Guard can provide reasonable assurances to the
       accuracy of the data contained in this report. To mitigate the risk of inaccuracies or
       incomplete accounting records, the Coast Guard utilizes procedures such as transactional
       level Audit Command Language (ACL) tie points analytics, substantive testing over budget
       authority and reimbursable agreements, funds controls enacted in field-level financial
       systems, and quarterly reviews of open transactions to ensure the accuracy of data.

3) Application of Drug Methodology

   The methodology disclosed in this section was the actual methodology used to generate the drug
   control obligation funding table required by ONDCP Circular: Accounting of Drug Control
   Funding and Performance Summary (issued January 18, 2013). Documentation on each decision
   unit is provided.

4) Reprogrammings or Transfers

   During FY 2013, the Coast Guard had no reports of transfers or reprogramming actions affecting
   drug related budget resources in excess of $1 million.

5)	 Fund Control Notices

   ONDCP did not issue Coast Guard a Fund Control Notice for FY 2013.




                                               5

                                                                      Attachment A

                         OPERATING EXPENSES (OE)
                        MISSION COST MODEL OUTPUT:
                                                            (dollars in thousands)
                                                                   FY 2013
                                                          Obligations      % of total
 1. Search and Rescue (SAR)                                  801,960         11.64%

 2. Marine Safety (MS)                                       605,389          8.79%

 3. Aids to Navigation (ATON)                              1,229,114         17.84%

 4. Ice Operations (IO)                                        99,332         1.44%

 5. Marine Environmental Protection (MEP)                    162,958          2.37%

 6. Living Marine Resources (LMR)                            630,776          9.16%

 7. Drug Interdiction                                        773,540         11.23%

 8. Other Law Enforcement (OTH-LE)                             75,472         1.10%

 9. Migrant Interdiction                                     471,528          6.84%

10. Ports, Waterways & Coastal Security (PWCS)             1,603,467         23.28%

11. Defense Readiness                                        435,560          6.32%
                                    Total OE Obligations $ 6,889,096          100%




                                            6

                                                                     Attachment B


                           RESERVE TRAINING (RT)
                        MISSION COST MODEL OUTPUT:
                                                           (dollars in thousands)
                                                                  FY 2013
                                                         Obligations      % of total
 1. Search and Rescue (SAR)                                   15,173        11.64%

 2. Marine Safety (MS)                                        11,454         8.79%

 3. Aids to Navigation (ATON)                                 23,255        17.84%

 4. Ice Operations (IO)                                        1,879         1.44%

 5. Marine Environmental Protection (MEP)                      3,083         2.37%

 6. Living Marine Resources (LMR)                             11,934         9.16%

 7. Drug Interdiction                                         14,636        11.23%

 8. Other Law Enforcement (OTH-LE)                             1,431         1.10%

 9. Migrant Interdiction                                       8,921         6.84%

10. Ports, Waterways & Coastal Security (PWCS)                30,338        23.28%

11. Defense Readiness                                          8,241         6.32%
                                    Total RT Obligations $   130,344          100%




                                            7

                                                                    Attachment C


 ACQUISITION, CONSTRUCTION and IMPROVEMENTS
         (AC&I) MISSION COST MODEL OUTPUT:
                                                          (dollars in thousands)
                                                                 FY 2013
                                                        Obligations      % of total

 1. Search and Rescue (SAR)                                122,408           8.08%

 2. Marine Safety (MS)                                        8,943          0.59%

 3. Aids to Navigation (ATON)                               43,633           2.88%

 4. Ice Operations (IO)                                     20,713           1.37%

 5. Marine Environmental Protection (MEP)                   11,681           0.77%

 6. Living Marine Resources (LMR)                          296,222          19.55%

 7. Drug Interdiction                                      524,852          34.64%

 8. Other Law Enforcement (OTH-LE)                          82,273           5.43%

 9. Migrant Interdiction                                   125,530           8.28%

10. Ports, Waterways & Coastal Security (PWCS)             130,178           8.59%

11. Defense Readiness                                      148,940           9.83%
                                Total AC&I Obligations $ 1,515,374           100%




                                            8

                                                                    Attachment D


  RESEARCH, DEVELOPMENT, TEST and EVALUATION
        (RDT&E) MISSION COST MODEL OUTPUT:
                                                         (dollars in thousands)
                                                                FY 2013
                                                      Obligations       % of total
 1. Search and Rescue (SAR)                                 3,954          17.75%

 2. Marine Safety (MS)                                        858           3.85%

 3. Aids to Navigation (ATON)                               2,827          12.69%

 4. Ice Operations (IO)                                       231           1.04%

 5. Marine Environmental Protection (MEP)                   5,161          23.16%

 6. Living Marine Resources (LMR)                           1,402           6.29%

 7. Drug Interdiction                                       2,563          11.50%

 8. Other Law Enforcement (OTH-LE)                            254           1.14%

 9. Migrant Interdiction                                    1,235           5.54%

10. Ports, Waterways & Coastal Security (PWCS)              3,066          13.76%

11. Defense Readiness                                         729           3.27%
                           Total RDT&E Obligations 1/ $    22,281            100%




                                            9

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   DHS Component Liaison
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Performance and Budget

   U.S. Coast Guard

   Commandant
   Chief Financial Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-39
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
